September 14, 2010

JOSEPH MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

SUBJECT: Audit Report – Statistical Tests for Fiscal Year 2010
         (Report Number FF-AR-10-222)

This report presents the results of our audit of the statistical tests for fiscal year
(FY) 2010 (Project Number 10BD003FF000). The objective of our audit was to
determine whether the U.S. Postal Service conducted statistical Origin-Destination
Information System-Revenue, Pieces, and Weight (ODIS-RPW) tests to collect cost,
revenue, and volume data in accordance with established policies and procedures. We
reviewed tests of the ODIS-RPW and conducted this work in support of the audit of the
U.S. Postal Service’s financial statements.1 See Appendix A for additional information
about this audit.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume
flow, weight, and transit times for most classes of mail and extra services.2 The Postal
Service uses data from tests to develop new rates, assist in budget preparation,
conduct management studies, and support management decisions concerning mail flow
and service performance in transportation and operations. The Postal Service also
relies on statistical programs sample data for revenue protection and to estimate the
stamp usage portion in the calculation of Postage in the Hands of the Public (PIHOP).3

Conclusion

The Postal Service generally conducted ODIS-RPW tests in accordance with
established data collection policies and procedures. However, we identified 11 errors in
seven of 63 tests observed.4 In this report, we discuss in detail only the most frequent
type of test errors, which we define as those that occurred in at least 5 percent of the
tests observed. We identified two types of test errors that accounted for 10 of the 11
errors. In addition to the test errors, data collectors in four districts did not follow

1
  This report does not present the results of audit work required under the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006).
2
  The Postal Service has identified a number of internal control design gaps related to the RPW general computer
controls and the documentation of management oversight for data collection and the analysis procedures.
3
  PIHOP is the process of deferring the recognition of revenue for postage purchased but for which services have not
yet been provided.
4
  These errors occurred in four of the 10 districts reviewed.
Statistical Tests for Fiscal Year 2010                                                                FF-AR-10-222



procedures for protecting data collection equipment. Although the percentage of test
errors has decreased significantly from prior years, we continue to identify errors and
issues over protection of data collection equipment that we previously reported in our
FYs 2009,5 2008,6 and 20077 reports.

Postal Service Has Repeat Test Errors and Data Protection Issues

We identified test errors and data protection issues that are repeat findings from prior
year audits. Although the corrective actions taken by postal management have
significantly decreased these errors, we continue to observe errors as well as issues
over protection of data collection equipment.

The two most frequent types of test errors identified include data collectors not:

       Following procedures to determine the appropriate random start and mailpiece
        and/or container skip intervals8 in three districts (five errors). A data collector
        must select the required mailpieces by applying the mailpiece skip interval
        through all selected mailpieces and/or containers using the container skip
        interval.9 In most instances, data collectors stated the errors were due to an
        oversight. Some data collectors stated the auditor’s presence made them
        nervous and that is why they made errors.

       Verifying information keyed into the
                          in two districts (five errors). A data collector must verify the
                                                                                    10
        information is correct when entering mailpiece
        The five errors occurred in four tests in which data collectors entered a total of
                                  . In most instances, data collectors stated they
        overlooked the required action.

These two types of test errors are repeat findings from FYs 2008 and 2009. In response
to the FY 2008 report, the Postal Service instructed the district Statistical Programs
personnel to reinforce these procedures during their quarterly training sessions. The
U.S. Postal Service Office of Inspector General (OIG) noted the FY 2009 errors before
the districts had conducted their quarterly training sessions. Therefore, we did not make
a recommendation to address these issues in FY 2009.

5
  Audit of Statistical Tests for Fiscal Year 2009 – Cost and Revenue Analysis (Report Number FF-AR-10-015, dated
November 20, 2009).
6
  Audit of Statistical Tests for Fiscal Year 2008 – Cost and Revenue Analysis (Report Number FF-AR-09-024, dated
November 24, 2008).
7
  Audit of Statistical Tests for Fiscal Year 2007 – Cost and Revenue Analysis (Report Number FF-AR-08-084, dated
January 30, 2008).
8
  The skip interval is an assigned number used by the data collector during ODIS-RPW tests to systematically select
mailpieces for recording. For example, a skip interval of 10 would require the data collector to select the first
mailpiece using the start number and then to select every tenth mailpiece for recording.
9
  Handbook F-75, Data Collection User's Guide for Revenue, Volume, and Performance Measurement System,
Section 3.7.2.4, October 2003.
10
   Handbook F-75, Chapter 3, pages 3 - 65.



                                                         2
Statistical Tests for Fiscal Year 2010                                                              FF-AR-10-222




The OIG identified these two issues in 70 percent11 of the tests observed in FY 2008, 33
percent12 of the tests observed in FY 2009, and 16 percent13 of the tests observed in FY
2010.

We also observed data collectors in four districts who did not follow procedures for
protecting data collection equipment. Specifically, in seven of 63 observations, data
collectors
                                       (five of seven instances occurred in two districts).14
Data collectors must preserve the integrity of test data by
                                                                            Generally, data
collectors stated they                           because of an oversight. This is a repeat
finding from each of the prior 4 fiscal year reports. As part of the corrective action taken,
headquarters issued a directive informing district management of actions required for
data and laptop security in FY 2007. In addition, in FY 2008, headquarters directed
district management to reinforce procedures for protecting                      through
quarterly training. In February 2010, headquarters implemented a national training
module for                              and required district managers of statistical
programs to certify that all data collectors had completed the training.

The cause for the test errors and issues over protection of data collection equipment is
inadequate oversight by data collectors. Over the years, the Postal Service has
addressed these issues by reinforcing policies, for example, during quarterly district
training. The Postal Service reviews the performance of data collectors with more than
1 year of program experience at least once during the fiscal year and enters the results
into the Process Support and Tracking System. This system could be used to monitor
data collector performance to reduce the types of errors we describe in this report,
which would help improve the Postal Service’s ability to accurately estimate revenue
and mail volume.

See Appendix B for detailed information on the testing errors by district and a
comparative discussion of the conditions reported in our FYs 2009, 2008, and 2007
audit reports.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Statistical Programs, to:

1. Verify that district statistical programs managers track data collector performance
   and take appropriate actions in response to performance issues.

11
   In FY 2008, we observed errors for these two issues in 37 of 53 tests (70 percent).
12
   In FY 2009, we observed errors for these two issues in 21 of 63 tests (33 percent).
13
   In FY 2010, we observed errors for these two issues in 10 of 63 tests (16 percent).
14
   There were three instances in the Albany District and two instances in the Los Angeles District.
15
   Handbook F-75, Appendix G-7 (Section IV.F); Handbook F-85, Data Collection User’s Guide for International
Revenue, Volume, and Performance Measurement Systems, Appendix B, Section IV, page B-9; and Statistical
Programs Letter #6, FY 2008, Administration.



                                                        3
Statistical Tests for Fiscal Year 2010                                        FF-AR-10-222




Management’s Comments

Management agreed with the recommendation and stated that by October 15, 2010,
Statistical Programs will instruct district statistical programs managers to track data
collector performance information for FY 2011 and take appropriate action in response
to performance issues. This will apply to those data collectors for whom process
reviews are completed. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the actions should resolve the issues identified in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial West, or me at 703-248-2100.

     E-Signed by Lorie Nelson
 VERIFY authenticity with ApproveIt




for John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    J. Ron Poland
    Douglas G. Germer
    Corporate Audit and Response Management




                                            4
Statistical Tests for Fiscal Year 2010                                         FF-AR-10-222



                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 divided Postal Service products into two categories: market-
dominant and competitive. Market-dominant product price increases cannot exceed the
increase in the Consumer Price Index and apply to each class of mail. For competitive
products, the Postal Regulatory Commission (PRC) has set rules for a pricing floor that
must cover the product’s costs and a required contribution to institutional costs.16 The
Postal Service will have the flexibility to change pricing on competitive products as it
wishes, consistent with the PRC rules, as long as it publishes the price in the Federal
Register at least 30 days before the effective date.

The Postal Act of 2006 requires the Postal Service to submit annual reports to the PRC
regarding its costs, revenue, rates, and quality of service. The act also requires the OIG
to audit regularly those data collection systems and procedures the Postal Service uses
to collect such information and to submit these reports to the Postal Service and the
PRC. This audit report is not the report called for under the act. Although the OIG will
issue reports on an ongoing basis for the audits required under the act, the purpose of
this report is to support the audit of the Postal Service’s financial statements.

ODIS-RPW is the primary probability sampling system that estimates revenue, volume
flow, weight, and performance measurement. The Postal Service uses data from tests
to develop new rates, assist in budget preparation, conduct management studies, and
support management decisions concerning mailflow and service performance in
transportation and operations. In addition, information collected from ODIS-RPW tests is
used in the calculation of PIHOP. The ODIS-RPW test requires data collectors to select
systematically mailpieces using a random start for all mail available on the randomly
selected day. Data collectors record various mailpiece characteristics, such as revenue,
weight, shape, indicia, barcode, postmark time, origin, and mail class.

Every person involved with collecting statistical programs data is to be reviewed on all
processes they regularly perform. A data collector with more than 1 year of experience
in a program is to be reviewed at least once during the fiscal year in that program. Once
a process review is completed, the results must be entered in Process Support and
Tracking System. This system provides reports used to identify training opportunities.




16
     Institutional costs are infrastructure and administrative costs.



                                                               5
Statistical Tests for Fiscal Year 2010                                                                     FF-AR-10-222




OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Postal Service conducted
statistical ODIS-RPW tests to collect cost, revenue, and volume data in accordance with
established policies and procedures.

To achieve our objective, we observed 52 judgmentally selected data collectors perform
63 judgmentally selected ODIS-RPW tests in 10 judgmentally selected districts.17 We
interviewed the data collectors performing the selected tests and reviewed the reports of
each test district the Statistical Programs managers provided.

We conducted this audit from December 2009 through September 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We did not assess the
reliability of the ODIS-RPW data and did not rely on that data for the purposes of this
report. We discussed our observations and conclusions with management on
August 24, 2010, and included their comments where appropriate. We also issued the
results of our observations’ checklists to 10 district managers.

PRIOR AUDIT COVERAGE

The OIG issued the following audit reports related to ODIS-RPW tests within the past 3
years. The reports concluded that the Postal Service generally conducted the tests in
accordance with established policies and procedures. However, we observed test errors
as described below for each report and included recommendations, as appropriate.
Management agreed with our findings and recommendations for each report.




17
   We selected districts in which we had not observed tests within the last 3 years. We obtained the test schedules
from each district for the period of our fieldwork and judgmentally selected tests that fit our fieldwork schedule. Data
collectors were assigned to the tests by the district prior to our selection.



                                                            6
 Statistical Tests for Fiscal Year 2010                                                   FF-AR-10-222




                                            Final
                            Report         Report
  Report Title              Number          Date Report                        Results
Audit of Statistical     FF-AR-08-084 1/30/200   8    Data collectors did not always identify, isolate,
Tests for Fiscal                                      and capture mail to be tested and tag sampled
Year 2007 – Cost                                      mail after testing to release for processing. In
and Revenue                                           addition to testing errors, data collectors did not
Analysis                                              always follow procedures for protecting data
                                                      collection equipment, and unit management did
                                                      not always ensure employees leveled and
                                                      calibrated electronic scales and did not
                                                      document calibration results.
Audit of Statistical     FF-AR-09-024 11/24/20   08   Data collectors did not always follow proper
Tests for Fiscal                                      random start and skip intervals; identify, isolate,
Year 2008 – Cost                                      and capture mail to be tested;
and Revenue                                                                                     adhere to
Analysis                                              sampling procedures; or bring required test
                                                      material to the site. In addition, data collectors
                                                      did not always follow procedures for protecting
                                                      data collection equipment.
Audit of Statistical     FF-AR-10-015 11/20/20   09   Data collectors did not always follow proper
Tests for Fiscal                                      random start and skip intervals;
Year 2009 – Cost                                                                                use
and Revenue                                           marking slips to identify mail being tested. In
Analysis                                              addition, data collectors did not always follow
                                                      procedures for protecting data collection
                                                      equipment.




                                                 7
Statistical Tests for Fiscal Year 2010                                                                  FF-AR-10-222



                                 APPENDIX B: DETAILED ANALYSIS

Tables 1, 2, and 3 present information on the testing errors identified in each district and
a summary comparison of the conditions reported in our FYs 2009, 2008, and 2007
audit reports.

Table 1: Summary of FY 2010 ODIS-RPW Observations and Testing Errors by
District
                                                                                    Total          Number
                                      Number of                Number of           Number          of Tests
                                    Data Collectors              Tests                of             with
            District18                Observed                 Observed             Errors          Errors
      Albany 7                                                     7                  0                0
      Colorado/Wyoming 5                                           7                  0                0
      Greater Michigan                        5                    7                  1                1
      Kentuckiana 7                                                7                  3                2
      Los Angeles                             7                    7                  0                0
      Portland 6                                                   7                  6                3
      Richmond 5                                                   7                  1                1
      Rio Grande                              4                    7                  0                0
      South Georgia                           3                    4                  0                0
      Suncoast 3                                                   3                  0                0
      Total 52                                                    63                  11               7
       * The districts highlighted had no reported test errors.




18
  Although the percentage of tests with errors appears high, each test contains multiple records and fields.
Therefore, the percentage of erroneous test entries is much lower than the total number of tests containing errors.



                                                          8
Statistical Tests for Fiscal Year 2010                                                                                              FF-AR-10-222



            Table 2: Detail of FY 2010 ODIS-RPW Test Errors19 and Observations by District20

                                                                                                                                           Total
                                                             Greater                           Los                                Rio      Test
                                                Albany       Michigan      Kentuckiana       Angeles     Portland   Richmond    Grande     Error
Test Errors/Observations                        District      District       District        District    District    District   District     s
ODIS-RPW
Data collector did not follow procedures
to determine appropriate random start                                           X (2)                      X (2)      X (1)                 5*
and mailpiece/container skip intervals.
Data collector did not verify the
                                                                                X (1)                      X (4)                            5*
information
Data collector did not bring the required
                                                    X             (1)                                                                        1
test material to the site.
Other Observations
Data collector did not follow procedures
to protect data integrity and data               X (3)          X (1)                            X (2)     X (1)                            7*
collection equipment.
Unit management did not always
ensure that scales used in conjunction
                                                                                                                                 X (1)       1
with           were leveled and/or
calibrated.


 * Most frequent test error, occurring in more than 5 percent of the total tests.




            19
                 The numbers of tests with errors are shown in parentheses.
            20
                 Three of 10 districts observed had no reported testing errors and other observations.

                                                                                             9
Statistical Tests for FY 2010                                                                         FF-AR-10-222



Table 3: Summary of Previously Reported Testing Errors and Management Issues
                                                                                   Number of Testing Errors
                                                                                FY     FY        FY         FY
Description of Testing Errors21                                                2010   2009      2008      2007
ODIS-RPW – Number of Tests Observed                                             63     63         53        57
Data collector did not follow procedures to determine appropriate random
                                                                                5       12       23 0
start and mailpiece/container skip intervals.
Data collector did not verify the information                                   5        9       14 2
Data collector did not use marking slips to identify mail being tested.         0        40                 0
Data collector did not bring the required test material to the site.            1        3        31
Data collector did not properly identify, isolate, and capture mail to be
                                                                                01               15         5
sampled/tested.
Data collector did not adhere to container sub-sampling or mailpiece
                                                                                01                82
sampling procedures.
Data collector did not tag sampled mail after testing to release for
                                                                                00                0         3
processing.
Data collector did not properly measure/record sampled mailpieces.              0        0        0         2
Data collector did not communicate effectively with unit personnel to
                                                                                00                0         1
ensure test mail was identified, flagged, and isolated.
Total Number of Errors                                                          11        30     63         16
                                                                                 Number of       Districts with
                                                                                   Errors           Errors
                                                                                FY        FY     FY         FY
Description of Management Issues22                                             2010     2009    2008       2007
Management Issue - Number of Districts Observed:                                10 13            14         13
Data collector did not follow procedures to protect data integrity and data
                                                                                7       10        7         3
collection equipment.
Manager, Statistical Programs, did not review mail exit point prior to test.    0        3        0         0
Manager, Statistical Programs, did not ensure data collectors were
                                                                                01                0         0
properly trained prior to conducting test.
Unit management did not always ensure that scales used in conjunction
                                                                                11                1         1
with           were leveled and/or calibrated.
Manager, Statistical Programs, did not document training received by
                                                                                00                1         0
employee.
Data collectors did not consistently process short-paid mail.                   0        0        1         0
Data collector allowed another data collector to use
                                                                                00                0         1
identification to enter mailpiece data.
Total Number of Management Issues23                 8         1                          5       10         5




21
   The cells highlighted in gray occurred in at least 5 percent of our observations.
22
   The cells highlighted in gray are reportable repeat findings.
23
   In FYs 2010 and 2009, each instance of a management issue was documented in observation checklists; however,
in FYs 2008 and 2007, only the district where the management issue occurred was documented and not the total
number of occurrences.



                                                            10
Statistical Tests for FY 2010                                 FF-AR-10-222



                          APPENDIX C: MANAGEMENT’S COMMENTS




                                         11
